              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




Audit Report
Design of the
Resolution   of Significant
                Uranium Storage
                            Finding
Investigation
Facility at theRecommendations
                Y-12 National Security
Complex




DOE/IG-0643
      -                                     November
                                               March 2002
                                                     2004
These concerns were not addressed because NNSA did not adequately update the cost-benefit
analysis for the project before making the decision to adopt the new design. As a result, the
Department risks spending at least $25 million more than necessary to construct the storage
facility. Consequently, we recommended that NNSA update all cost and schedule assumptions
and reevaluate its decision to use the non-berm design when constructing the facility.

In a number of prior reviews, the Office of Inspector General has noted project
management concerns regarding the Department's efforts to revitalize its infrastructure.
For example, our report on the Reconfiguration of the Kansas City Plant (DOE/IG-0616,
August 2003), found that the reconfiguration project would not achieve the goals
intended because project managers did not reevaluate the project when workload
assumptions changed and new missions were assigned to the site.

NNSA's Associate Administrator for Management and Administration concurred with the
finding and recommendation and agreed to revalidate the decision to proceed with the uranium
storage facility. In addition, management stated that the reevaluations will include cost,
schedule, risk to the project, safeguards and security, and safety considerations, and will be
completed prior to any major earth-moving activities. However, the Associate Administrator and
the Y-12 Site Manager did not agree that the new design would result in cost increases of $25
million and remain convinced that the evaluation will revalidate the decision to proceed with the
non-berm design.

Management’s decision to conduct a review of the project is responsive to our recommendation.
However, based on currently available information, such as the need for additional safeguards
and materials, we concluded that the cost of the non-berm design is likely to exceed that of the
original design. A comprehensive life-cycle review, such as the one management has committed
to undertake, will provide the data to resolve all questions as to the cost benefit of the current
uranium storage facility design, specifically in comparison to the original design.


Attachment

cc:    Deputy Secretary
       Administrator, National Nuclear Security Administration
DESIGN OF THE URANIUM STORAGE FACILITY AT THE Y-12
NATIONAL SECURITY COMPLEX

TABLE OF
CONTENTS


               Facility Costs, Security, and Schedule


               Details of Finding............................................................. 1

               Recommendations and Comments ................................. 3


               Appendices

               1. Objective, Scope, and Methodology .......................... 5

               2. Management Comments............................................ 7
Facility Costs, Security, and Schedule

Highly Enriched   We determined that the new non-berm design was unlikely to
Uranium Storage   achieve its intended objectives to provide: (1) lower life-cycle
Project           costs than the prior design; (2) better security with greater
                  flexibility to adapt to increased security threats; and (3) less risk of
                  construction schedule delays from the foundation support system.
                  The storage facility project is currently in the design phase and
                  facility construction is expected to begin in January 2005.

                                           Life-Cycle Costs

                  Based on our analysis of project documentation, we found that if the
                  non-berm facility design is used, both construction and operating costs
                  will be higher than those projected for the berm design. Our analysis
                  of the two designs showed that the design of the non-berm facility is
                  more complex and requires a much larger, multi-layered facility. For
                  example, to provide an adequate security barrier, the non-berm design
                  will be 75 percent larger with almost three times the non-storage space
                  as the original berm design. The non-berm design also requires:

                      •   Additional specialty items that would not be required in the
                          berm design, increasing the total project cost by $10 million;
                      •   A foundation support system costing almost $6 million more
                          than the one specified in the original design;
                      •   Almost twice as much concrete as the original design, which
                          will increase the total project cost by almost $8 million; and,
                      •   More heating, air conditioning and ventilation equipment,
                          electrical wiring, piping, and fire protection equipment, than
                          would be necessary for the smaller bermed facility at an
                          estimated cost of at least $1 million.

                  The non-berm design will also incur additional operating costs
                  compared with the original berm design. Because the non-berm
                  design relies on a layered security concept, it requires up to four times
                  as many security personnel to protect the facility, costing the National
                  Nuclear Security Administration (NNSA) up to $3.6 million more
                  annually or $177 million more over the expected 50 year life of the
                  facility. In addition, the non-berm design's flexibility to meet an
                  increase in the security threat relies on adding personnel in direct
                  proportion to the increased security threat. Finally, without the
                  temperature regulation provided by the berm, the non-berm facility
                  design will require additional energy to maintain proper heating and
                  cooling temperatures.




Page 1                                                            Details of Finding
                          Security and Design Flexibility

         Further, the non-berm design will not provide improved security
         and design flexibility over the original design. For example, a
         security review conducted by Sandia National Laboratories in
         September 2001 concluded that, while both designs were adequate,
         "the new design was not as effective as the berm design." In
         addition, during our audit, local NNSA and contractor officials,
         Department of Energy Headquarters personnel, and Sandia
         National Laboratories security experts all told us that the berm
         design provided a high level of engineered security.

         Based on the recommendations of the 2001 security review, NNSA
         spent a year incorporating improvements into the non-berm design.
         Although Sandia conducted another security review in December
         2002, no comparison was made between the security of the revised
         non-berm design to the berm design. Finally, NNSA did not
         analyze the berm design's flexibility to adapt to increases in the
         security threat, and, therefore, has no basis for comparison. Based
         on the high level of engineered security provided by the berm, the
         results of the security reviews, and the current design's heavy
         reliance on security personnel, it is not clear, in our judgment, that
         the non-berm design provides improved engineered security or
         design flexibility over the original berm design.

                                Construction Schedule

         The non-berm design has also not reduced the schedule risk as
         predicted. The berm design required a foundation support system
         to bear the combined weight of the berm and the facility. BWXT
         believed that this aspect of the berm design presented a high risk
         for schedule delays because the berm foundation support system
         had to be designed and constructed to withstand a high level of
         seismic activity. Further, BWXT believed that if the berm was
         removed from the design, a foundation support system would not
         be needed and a traditional slab-on-grade foundation could be
         used. However, the seismic concerns were not resolved as
         expected with the non-berm design. As a result, BWXT now plans
         to construct another type of foundation support system, which will
         take twice as long to construct than the original design and, as
         mentioned above, will cost almost $6 million more.




Page 2                                                 Details of Finding
Cost Benefit     NNSA did not adequately update the cost-benefit analysis before
Comparison       making the decision to use the non-berm design. Specifically, the
                 assumptions used as the basis for changing designs in 2000 were not
                 revalidated as additional information on the non-berm design
                 developed. For example, BWXT prepared a life-cycle cost
                 comparison in June 2001 that assumed the non-berm design would
                 cost $144 million to construct. Within months of preparing this
                 analysis, BWXT realized that the non-berm facility would cost much
                 more than $144 million to construct. However, the life-cycle cost
                 comparison was not revised to account for the new information.
                 Instead, NNSA allowed BWXT to continue redesigning the facility
                 even when initial attempts to reduce the cost and improve the security
                 of the facility failed. BWXT spent over a year developing a new
                 conceptual design, which has since required eight major revisions.
                 Despite the availability of new information for comparison, once the
                 Y-12 Site Office made its initial decision to recommend the non-berm
                 design in November 2001, neither the original nor alternative designs
                 were revisited.

Cost Avoidance   Based on our analysis of the Department's assumptions and the related
                 documentation, we concluded that NNSA may spend more than necessary
                 for the construction and operation of a highly enriched uranium storage
                 facility. For example, using the berm design as a possible alternative, we
                 determined that at least $25 million in facility construction costs could be
                 avoided. The construction costs include the extra cost required for
                 additional specialty items, concrete and other materials, heating, air
                 conditioning and ventilation equipment, electrical wiring, piping, fire
                 protection equipment, and the changed foundation support system. In
                 addition, NNSA could avoid about $3.6 million annually to operate the
                 new facility because fewer security personnel are required for the berm
                 design.


RECOMMENDATION   We recommend that the NNSA Deputy Administrator for Defense
                 Programs update all cost and schedule assumptions and reevaluate the
                 decision to use a non-berm design for the highly enriched uranium
                 materials storage facility.


MANAGEMENT       Management concurred with the finding and recommendation. In
REACTION         addition, management stated that the reevaluations will include cost,
                 schedule, risk to the project, safeguards and security, and safety
                 considerations, and will be completed prior to any major earth-




Page 3                                     Recommendations and Comments
                   moving activities. However, the Associate Administrator and the Y-12
                   Site Manager remain convinced that this review will likely revalidate the
                   decision to proceed with the non-berm design. In addition, they do not
                   agree that NNSA will spend $25 million more than necessary to construct
                   the facility. Management’s comments are included in their entirety as
                   Appendix 2.


AUDITOR COMMENTS   Management’s decision to reevaluate the project is responsive to our
                   recommendation. In our judgment, until such a review is complete,
                   management does not have sufficient data to determine whether the costs
                   will increase. Based on currently available information, such as the need
                   for additional safeguards and materials, we concluded that the cost of the
                   non-berm design is likely to exceed that of the original.




Page 4                                         Recommendations and Comments
Appendix 1

OBJECTIVE     The objective of the audit was to determine if the non-berm design
              of the highly enriched uranium materials facility at the Y-12
              National Security Complex would achieve intended objectives.


SCOPE         The audit was performed from April 2003 to December 2003, at
              Y-12 in Oak Ridge, Tennessee. The audit included a review of
              design and cost estimate documents for the highly enriched
              uranium materials facility. Since the separate storage space for the
              surge capacity and materials subject to international inspection was
              eliminated in the current non-berm design, the costs associated
              with that capacity were also removed from the berm design in
              order to make a more accurate comparison.


METHODOLOGY   To accomplish the audit objective, we:

                 •   Reviewed the design documents for both the berm and the non-
                     berm designs;

                 •   Reviewed security evaluations for all designs;

                 •   Compared the detailed cost estimates for the original design dated
                     September 1999, and the current design dated July 2003;

                 •   Adjusted the cost estimate for the berm design to incorporate
                     increased site overhead rates and escalation;

                 •   Reviewed correspondence regarding the designs between 1998 and
                     2003;

                 •   Evaluated current storage facilities; and,

                 •   Interviewed personnel from Y-12, NNSA Headquarters, Sandia
                     National Laboratories, the Nevada Site Office, and the Oak Ridge
                     National Laboratory.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and
              included tests of internal controls and compliance with laws and
              regulations to the extent necessary to satisfy the audit objective.
              Accordingly, the audit included a review of the project
              management activities associated with the facility design.




Page 5                                    Objective, Scope, and Methodology
Appendix 1 (continued)

                 Because our review was limited, it would not necessarily have
                 disclosed all internal control deficiencies that may have existed at
                 the time of our audit. As part of our review, we also evaluated the
                 NNSA's implementation of the Government Performance and
                 Results Act of 1993. We found that NNSA established specific
                 performance objectives for the design of the new facility. We did
                 not rely on computer-processed data to achieve our audit objective.

                 We held an exit conference with NNSA Headquarters and Y-12 Site
                 Office officials on March 15, 2004.




Page 6                                      Objective, Scope, and Methodology
Appendix 2




Page 7       Management Comments
Appendix 2 (continued)




Page 8                   Management Comments
                                                                    IG Report No. DOE/IG-0643

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
